                                      NATIONAL SCIENCE FOUNDATION
                                       OFFICE O F INSPECTOR GENERAL
                                         OFFICE O F INVESTIGATIONS


                          CLOSEOUT MEMORANDUM

Case Number: A03110063                                             11        Page 1 of 1



    This grant1 was selected as part of our proactive review of FY 2001 awards for
    conferences, workshop, and symposia to assess compliance with applicable laws,
    regulations, and award conditions. As part of this review, we requested documents
    from the grantee describing how it dispensed program income, if any was generated.
    We concluded there was no program income, but several charges appeared
    questionable. We closed the initial file2 and opened this case to question those
    charges, which included a possible indication of reallocation of Participant Support
    without NSF approval, a charge for a banquet (a possible social event), a charge for
    mugs given to the conference attendees, and a No-Cost Extension (NCE) that may
    have been exercised for the purpose of spending out the grant. We wrote the
    grantee and asked for explanations and supporting documentation.
    The Director of Audit & Management Advisory Services3 provided the requested
    information. She explained the banquet was a working event and part of the
    conference. She noted the mugs were in the original proposal budget, which was
    approved, but, nonetheless, agreed they were not a direct benefit to the workshop.
    There were no reallocated funds-participant support was indeed spent on
    participants. She explained the NCE expenses and that they were actually planned
    to occur after the workshop (they were technical services for creating a web page
    and reports).
    Since the grant was closed, the grantee planned to reimburse NSF $400 for the
    mugs by putting the funds into another NSF grant, and ensuring it was a n
    allowable cost. We agreed and requested documentation showing it had done so.
    The grantee provided documentation about the transfer of funds from the closed
    account into another NSF grant4 where the funds paid a site licensing fee. Software
    licensing costs is a n approved line item on the this grant's budget. Accordingly, this
    case is closed.
